<html>
<title> - LEGISLATIVE PROPOSALS IN RESPONSE TO HURRICANE KATRINA</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]





         LEGISLATIVE PROPOSALS IN RESPONSE TO HURRICANE KATRINA

=======================================================================

                                (109-40)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 3, 2005

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure




                    U.S. GOVERNMENT PRINTING OFFICE
                           WASHINGTON : 2006 
25-920 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
VERNON J. EHLERS, Michigan           BOB FILNER, California
SPENCER BACHUS, Alabama              EDDIE BERNICE JOHNSON, Texas
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               JUANITA MILLENDER-McDONALD, 
RICHARD H. BAKER, Louisiana          California
ROBERT W. NEY, Ohio                  ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        EARL BLUMENAUER, Oregon
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
GARY G. MILLER, California           BILL PASCRELL, Jr., New Jersey
ROBIN HAYES, North Carolina          LEONARD L. BOSWELL, Iowa
ROB SIMMONS, Connecticut             TIM HOLDEN, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
TODD RUSSELL PLATTS, Pennsylvania    JIM MATHESON, Utah
SAM GRAVES, Missouri                 MICHAEL M. HONDA, California
MARK R. KENNEDY, Minnesota           RICK LARSEN, Washington
BILL SHUSTER, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
JOHN BOOZMAN, Arkansas               ANTHONY D. WEINER, New York
JIM GERLACH, Pennsylvania            JULIA CARSON, Indiana
MARIO DIAZ-BALART, Florida           TIMOTHY H. BISHOP, New York
JON C. PORTER, Nevada                MICHAEL H. MICHAUD, Maine
TOM OSBORNE, Nebraska                LINCOLN DAVIS, Tennessee
KENNY MARCHANT, Texas                BEN CHANDLER, Kentucky
MICHAEL E. SODREL, Indiana           BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania        RUSS CARNAHAN, Missouri
TED POE, Texas                       ALLYSON Y. SCHWARTZ, Pennsylvania
DAVID G. REICHERT, Washington        JOHN T. SALAZAR, Colorado
CONNIE MACK, Florida                 JOHN BARROW, Georgia
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
JEAN SCHMIDT, Ohio

                                  (ii)




 Subcommittee on Economic Development, Public Buildings and Emergency 
                               Management

                  BILL SHUSTER, Pennsylvania, Chairman

JIM GERLACH, Pennsylvania            ELEANOR HOLMES NORTON, District of 
KENNY MARCHANT, Texas, Vice-Chair    Columbia
CHARLES W. DENT, Pennsylvania        MICHAEL H. MICHAUD, Maine
JOHN R. `RANDY' KUHL, Jr., New York  LINCOLN DAVIS, Tennessee
DON YOUNG, Alaska                    JULIA CARSON, Indiana
  (Ex Officio)                       JAMES L. OBERSTAR, Minnesota
                                       (Ex Officio)

                                 (iii)


                                CONTENTS

                               TESTIMONY

                                                                   Page
 Blumenauer, Hon. Earl, a Representative in Congress from the 
  State of Oregon................................................    11
 Foley, Hon. Mark, a Representative in Congress from the State of 
  Florida........................................................     7
 Jindal, Hon. Bobby, a Representative in Congress from the State 
  of Louisiana...................................................    22
 Kennedy, Hon. Patrick J., a Representative in Congress from the 
  State of Rhode Island..........................................     5
 Kolbe, Hon. Jim, a Representative in Congress from the State of 
  Arizona........................................................     3
 Lantos, Hon. Tom, a Representative in Congress from the State of 
  California.....................................................    13
 Pickering, Hon. Charles W. ``Chip'', a Representative in 
  Congress from the State of Mississippi.........................    17
 Platts, Hon. Todd Russell, a Representative in Congress from the 
  Commonwealth of Pennsylvania...................................     8
 Schmidt, Hon. Jean, a Representative in Congress from the State 
  of Ohio........................................................    16
 Shays, Hon. Christopher, a Representative in Congress from the 
  State of Connecticut...........................................    14

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Blumenauer, Hon. Earl, of Oregon.................................    26
  H.R. 3524, section-by-section and text of bill.................    27
Davis, Hon. Tom, of Virginia.....................................    43
 Foley, Hon. Mark, of Florida....................................    45
  H.R. 1870 and H.R. 3685, text..................................    48
 Jindal, Hon. Bobby, of Louisiana................................    57
  H.R. 3747, H.R. 3208, and H.R. 4163, text......................    61
 Kennedy, Hon. Patrick J., of Rhode Island.......................    81
  H.R. 3565, text................................................    87
 Kolbe, Hon. Jim, of Arizona.....................................   112
   H.R. 3737, section-by-section, talking points, Dear 
    Colleagues, and text.........................................   117
 Lantos, Hon. Tom, of California.................................   149
  H.R. 3858, text................................................   150
Mack, Hon. Connie, of Florida....................................   153
Menendez, Hon. Robert, of New Jersey.............................   155
Norton, Hon. Eleanor Holmes, of the District of Columbia.........   157
Oberstar, Hon. James L., of Minnesota............................   159
 Platts, Hon. Todd Russell, of Pennsylvania......................   162
  H.R. 3810, text................................................   165
 Schmidt, Hon. Jean, of Ohio.....................................   169
  H. Con. Res. 285, text.........................................   174
Shaw, Hon. E. Clay, Jr., of Florida..............................   176
  H.R. 1137, text................................................   180
 Shays, Hon. Christopher, of Connecticut.........................   189
Udall, Hon. Mark, of Colorado....................................   190
  H.R. 3816, section-by-section and text.........................   192

                         ADDITIONS TO THE RECORD

H.R. 3764, text..................................................   195
H.R. 4266, text and Section-by-Section...........................   212

 
         LEGISLATIVE PROPOSALS IN RESPONSE TO HURRICANE KATRINA

                              ----------                              


                       Thursday, November 3, 2005

        House of Representatives, Committee on 
            Transportation and Infrastructure, Subcommittee 
            on Economic Development, Public Buildings and 
            Emergency Management, Washington, D.C.
    The committee met, pursuant to call, at 10:00 a.m. in room 
2167, Rayburn House Office Building, Hon. Bill Shuster 
[chairman of the committee] presiding.
    Mr. Shuster. The Subcommittee will come to order.
    We are meeting this morning to discuss legislative 
proposals on the recovery effort in New Orleans and the gulf 
region. I look forward to numerous proposals on issues ranging 
from accountability, to Stafford Act amendments and ensuring a 
successful recovery.
    There has been a great deal of concern expressed lately, 
especially by members of Congress, over how we will ensure 
accountability over the billions of dollars that will be spent 
on the recovery effort in the Gulf region. I agree that it is 
imperative that sufficient oversight be in place to protect the 
American taxpayer from waste, fraud, and abuse. We should also 
be mindful that accountability is paramount to a successful 
recovery of the region. In this effort, every dollar we lose to 
waste, fraud and abuse is a dollar not spent helping the people 
of the impacted region.
    On Tuesday, the President appointed a reconstruction czar 
to oversee recovery efforts in the Gulf region. While I believe 
this is a step in the right direction, I am concerned that this 
does not fully address the problem. For example, will the 
selection of a recovery czar lead to more aggressive and 
successful recovery of the region? What will this czar's role 
be? A successful Federal effort could hinge on the answers to 
these questions.
    So who is qualified to manage the reconstruction effort? As 
imperfect as FEMA may be, FEMA is the only Government entity 
with the experience and the expertise to manage and coordinate 
the disaster recovery. I believe, as I have mentioned many 
times, FEMA can and should lead this effort, but we must 
increase FEMA's capacity to handle the job and make the 
necessary amendments to the Stafford Act's recovery provisions.
    The Stafford Act provides broad authority for the President 
to respond to major disasters. As a result, the obstacles to a 
successful response are not in law, but in the execution of the 
existing response authorities. Unfortunately, the legal 
provisions for a recovery operation are not as clean cut. While 
the Stafford Act's authorities can achieve recovery, it has 
never before been called upon to do so much for so many people. 
I hope proposals will be made today to adapt and streamline the 
recovery provisions of the Stafford Act to handle disasters of 
this magnitude.
    We are all well versed in the damage and destruction caused 
by Hurricane Katrina. We have expressed concerns for successful 
recovery operations. Two months after the disaster, we now have 
a better understanding of the needs of the region and its 
people. In my opinion, we are reaching a critical stage of the 
recovery operation. We either develop a Federal recovery plan 
that supports State and local decisions and enables the region 
to return to its pre-hurricane condition, or we will remain 
forever responsible for the largest recovery failure this 
Nation has experienced. Such a plan must encompass direct 
Government assistance, private sector participation, 
accountability, flexibility, and respect for local decisions.
    I look forward to hearing of relevant proposals from our 
colleagues today and I remind everyone that while 
accountability is necessary to protect the interests of 
taxpayers, we must not lose focus of our primary goal, which is 
to ensure a successful reconstruction and rebirth of the 
region.
    I want to briefly discuss the format for today's hearings. 
As much as possible, we have tried to accommodate members' 
requests on timing issues, but as you are all aware, this is 
rarely possible. However, if members testifying today limit 
their testimony to five minutes, we will be able to quickly 
move through all the proposals.
    In keeping with Committee policy, we will not ask questions 
of the members. However, I would like to assure my colleagues 
that if we have questions at a later time, we will not hesitate 
to ask.
    I would now like to recognize Ms. Norton for an opening 
statement.
    Ms. Norton. Thank you very much, Mr. Chairman.
    I am going to put my written statement into the record and 
simply thank you for this third of the three hearings that you 
indicated you would be holding after the Katrina crisis 
emerged. We are doing in this hearing what we pledged to do 
from the beginning, and that is to look at FEMA, in particular, 
the Agency under our jurisdiction and see in what ways the 
Agency can be improved.
    In our last hearing, a joint hearing with Water Resources, 
we heard from the Governor of the State and the Mayor of New 
Orleans, and we looked specifically at that city's vision for 
the future and at the recovery issues surrounding that 
particular city and that State. With this hearing, this third 
hearing, the time for action has come. We can perhaps find no 
better way to take action than to hear from our colleagues who 
have their own ideas about how to proceed. I am sure we can 
benefit from those ideas.
    I am concerned that the Mayor in interviews has indicated 
that the momentum that was present right after the crisis that 
alarmed our Country and the world has slipped, and there have 
been many complaints in the Gulf region about the pace of the 
recovery efforts. For me, there is an overarching question, and 
that is whether or not FEMA is more or less effective as a part 
of the Department of Human Services. That is the kind of 
question you can tackle only after you have looked at a broader 
range of issues.
    I do note that we have hurricanes and we have floods and we 
have tornadoes every year. It appeared that the specific kind 
of disaster that you can count on was the kind of disaster that 
FEMA was the least prepared for. We have to find out why. We 
understand, indeed it was entirely understandable that after 9/
11 FEMA would be focused more on terrorism than before. But it 
appears that they were, that the Agency was disproportionately 
focused on terrorism and not on natural disasters that hit 
every section of our Country every year. We have to find out 
what we can do to make sure that doesn't happen again and that 
the focus is where we know there will be great issues on an 
annual basis.
    I am particularly grateful to our colleagues, particularly 
because they are not on the Committee, many of them are not 
even in the region, but they bring, it seems to me, fresh eyes 
and fresh ideas that we can all benefit from, and I very much 
appreciate their efforts as well and appreciate all three of 
these hearings, Mr. Chairman.
    Mr. Shuster. Thank you. And thank you for your dedication 
to this process we have been going through. I want to also 
welcome and just echo what the Ranking Member said to members 
from different committees, different parts of the Country. I 
think that is what this place is all about. There are fresh 
ears, fresh eyes and ideas taking a look at this situation.
    So I would like to ask unanimous consent that all of our 
witnesses' testimony be made part of the record. Without 
objection, so ordered.
    First up, I would like to call on Chairman Kolbe from 
Arizona for his testimony.

   TESTIMONY OF THE HONORABLE JIM KOLBE, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Kolbe. Thank you very much, Mr. Chairman. I will adhere 
to your admonishment to keep the testimony short. The full 
testimony has been submitted for the record. I just want to 
summarize a few of the thoughts that I had and obviously would 
answer the questions you may submit later, if you have any.
    I have introduced legislation, H.R. 3737, which would 
create a Special Inspector General for Hurricane Katrina 
Recovery. This legislation grew out of my own experience as 
Chairman of the Foreign Operations Committee, where we created 
a special Inspector General for Iraq Reconstruction. I think it 
has been enormously helpful in preventing millions of dollars 
of waste and fraud that might otherwise have occurred in Iraq.
    As Chairman of that Subcommittee on Foreign Operations, we 
created this because we could see the large number of different 
elements and entities that were involved in the reconstruction. 
There was no kind of central authority for the oversight of it. 
We monitored this work throughout, and I think it has been 
extraordinarily successful.
    So what we are proposing with an independent Inspector 
General for Katrina, whose tenure would last only until the 
Katrina recovery is completed, would be a watchdog with 
oversight over all the Federal Hurricane Katrina emergency 
funding. I think it is obvious, everybody agrees about the need 
for oversight through an inspector general. The Department of 
Homeland Security, along with other departments and agencies, 
sent the IG teams to the region shortly after the Hurricane 
Katrina disaster.
    Our experience in Iraq has proved that the mere presence of 
an inspector general can have a chilling effect on potential 
waste, fraud and abuse. As you pointed out in your opening 
statement, Mr. Chairman, the Administration assigned FDIC 
Chairman Donald Powell as the recovery czar for Katrina. This 
is, I think, explicit recognition that we need a single entity 
to manage the recovery.
    But Chairman Powell already has a full-time job at the 
FDIC, and he is not an inspector general. So I think a special 
inspector general provides the best and the most cost-effective 
solution.
    I say this regardless of how good a job the current 
Inspector General for DHS is doing. And I say it irrespective 
of how my proposal is compared to other legislative proposals 
that are out there. This is why I would say that.
    First, a single, temporary Government-wide entity with a 
dedicated mission provides the authority, responsibility and 
chain of command to ensure clear priorities, one-stop 
accountability, consistent standards, and avoids duplication of 
efforts.
    Second, a special inspector general's enabling authority to 
cross jurisdictional lines provides unique status, independence 
and integrity to obtain information and evidence, to issue 
subpoenas permitting aggressive pursuit of wrongdoers.
    Third, currently the Department of Homeland Security 
Inspector General does not have operational control over the 
inspectors general of other departments and agencies. Without 
this operational control, the Inspector General for DHS cannot 
direct the activities of other inspectors general when asked. 
They can cooperate, as they do, with the counsel they have, but 
they can't enforce cross-jurisdictional priorities nor validate 
the work of the other inspectors general.
    Fourth, the preponderance, related to this last one, the 
preponderance of funds that have been appropriated are either 
appropriated or transferred outside of DHS. As of October 26th, 
for example, about $345 million was obligated to the Department 
of Homeland Security, but almost $7 billion to other non-
Department of Homeland Security departments and agencies.
    Fifth, I don't think this should be underestimated, is the 
importance of having a temporary organization, which we have 
with the Inspector General for Iraq. As such, it can use 
expedited procedures to hire staff. We all know how long it 
takes to get an agency up and running if you use normal 
procedures. Secondly, related to that, it terminates after 
recovery money is expended. It doesn't contribute to a bloated 
bureaucracy. We already are making plans to terminate the work 
of the Inspector General in Iraq, for example.
    Fifth, and finally, the Inspector General will not divert 
resources away from the current Inspector General for DHS for 
his responsibilities for ongoing investigations that are 
necessary to help protect this Nation from terrorism. It 
prevents the inevitable duplication of administrative costs, I 
think, under the current structure.
    Mr. Chairman, Congress has already appropriated over $60 
billion in response to Hurricane Katrina. This is double, 
double the entire appropriation for the Department of Homeland 
Security. And more is likely to follow. Additional, temporary 
Government-wide oversight resources under a single chain of 
command are, in my view, necessary.
    Mr. Chairman, I want to thank you for this opportunity to 
testify today. I hope that you will favorably consider H.R. 
3737, bring it to the floor of the House of Representatives as 
soon as possible. I have every reason to believe a similar bill 
will move over in the Senate fairly quickly.
    Thank you, Mr. Chairman.
    Mr. Shuster. Thank you, Chairman Kolbe. We appreciate your 
being here today. I am well aware of what your proposal did in 
Iraq, and it has been a success. So we certainly will take a 
very, very close look as we move forward on this.
    Thank you again for your time today.
    Mr. Kolbe. Thank you.
    Mr. Shuster. Next I would like to call on the Honorable 
Patrick Kennedy from Rhode Island.

TESTIMONY OF THE HONORABLE PATRICK J. KENNEDY, A REPRESENTATIVE 
           IN CONGRESS FROM THE STATE OF RHODE ISLAND

    Mr. Kennedy. Thank you, Mr. Chairman and Ranking Member 
Norton. Thank you for having this hearing.
    I think both of us saw today's Washington Post, Flu Plan 
Counts on Public Cooperation. Public cooperation is what my 
legislation addresses. Let me read you a couple of quotes as to 
why this is so critical.
    ``They should have treated us like we were the Hart Senate 
Office people. I mean, they should have treated us all 
equally.'' That came from postal workers at the Brentwood 
postal facility when we had the anthrax attack. They went on to 
say, ``They gave the Capitol Hill police dogs Cipro before we 
got anything.''
    Now we have a quote from a Senate staffer: ``They gave us 
preferential treatment because we were in Congress. And if that 
was readily apparent to us, it was probably apparent to the 
whole community.''
    The Ready, Willing and Able Act, H.R. 3565, addresses the 
fact that this impression that was created by the response to 
the anthrax attack was compounded by Katrina and the 
perceptions of unequal treatment in the response by the Federal 
Government to Katrina. Imagine the consequences if just a small 
percentage of the population perceives, rightly or wrongly, 
that race or socio-economics or politics is playing a role in 
who gets life-saving therapies.
    Involving the public in designing a transparent, ethical, 
rational plan ahead of time mitigates against this danger. The 
greater the involvement of the public in the planning process, 
the better the implementation of the plan.
    What we need to do with the plan is incorporate the common-
sense wisdom of the local citizenry, account for the local 
conditions of culture, language, geography, infrastructure, 
politics, numerous other factors, most of which are, which are 
going to be the predominant threats to that given area. In the 
Boston area, it will be LNG. In San Francisco, it will be 
earthquakes. In Santa Barbara, mudslides. It will differ from 
area to area.
    The response will certainly be gauged differently. But the 
nature of the public's involvement will be what is essentially 
necessary, in whichever environment this potential tragedy 
takes place, we will need.
    Based on over 50 years of social scientific research, the 
typical response by the typical citizen caught in a disaster, 
as well as the collective responses of their social networks is 
selfless and pro-social behavior. We saw that in New York on 9/
11. People were successful evacuated from the lower Manhattan 
area in the largest water-borne evacuation in human history. 
Barges, fishing boats, ferries and pleasure craft, 
spontaneously and collectively supported the Coast Guard and 
harbor pilots in moving hundreds of thousands of people away 
from danger, as well as transporting emergency personnel and 
equipment to the docks near ground zero.
    Members of the Independence Plaza North Tenants 
Association, this is what I'm getting at, local groups, tenants 
groups, Rotary clubs, Kiwanis clubs, an employer, a corporate 
park, all of whom can be essential in putting together their 
own responses to whatever they feel potentially will be a 
crisis, and how they plan to be assisting in the efforts to 
address that crisis. In these examples in New York, we saw how 
ordinary citizens were actively involved in the recovery 
effort. We should appreciate that citizens are our assets, not 
liabilities. While they are not the Government, they still 
remain an essential part of any response to whatever challenge 
this Country may have in the future.
    So Mr. Chairman, Ranking Member Norton, I just would like 
to submit this legislation to you and say that if we have a 
pandemic flu attack, I can guarantee you, from everything that 
has been testified to now, we are not going to have enough 
supplies. How we address what the plan will be will have a 
great deal to do with what the public's response will be to 
whatever we come up with. If the public thinks a bunch of pols 
in the Capitol came up with the plan, and if they don't see 
their local community groups consulted, they are not going to 
have a great deal of confidence that what is being decided is 
being decided in their best interests. As a result, I think we 
will have a worse situation than we need.
    If anyone had asked the people of New Orleans, the local 
people, what are you going to do in an evacuation, imagine the 
local citizens. You know what they would have said? They would 
have said, you know what, how can we evacuate? We have no 
transportation. I bet you no one asked or even thought of 
asking that question.
    That is why we need to ask local folks what they ought to 
have to contribute to any local response plan that is 
developed. I thank the Chairman for the time.
    Mr. Shuster. I want to thank you. Your point is well made 
and well taken, it is critical that the local citizenry not 
only participates in the plan, but that they are prepared to do 
whatever the different region in the Country has to deal with. 
Thank you for your time today and thank you for your proposal.
    Next we will hear from the Honorable Mr. Mark Foley from 
Florida.

  TESTIMONY OF THE HONORABLE MARK FOLEY, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Foley. Thank you very much, Mr. Chairman. I associate 
myself with Congressman Kennedy's concerns and comments. I 
think it is very critically important that local community 
officials take part in all of this, both preparation and 
remediation.
    Mr. Chairman, my bill today deals with separating FEMA from 
Homeland Security. It is the Federal Disaster Response 
Improvement Act. It removes FEMA from the U.S. Department of 
Homeland Security. In my view, clearly, FEMA cannot carry out 
its mission of disaster response and recovery inside DHS.
    I came to this conclusion prior to the first hurricane 
hitting Florida. So this isn't simply a response to four 
hurricanes hitting my district.
    FEMA is a good organization. It has good employees. It 
tries hard. My concern after the hurricanes was watching 
Secretary Chertoff standing on the White House lawn, worried 
about rising tides, floods in Louisiana and problems associated 
with the chaotic scene of disaster recovery. I want Secretary 
Chertoff to be concerned about al Qaeda. I want him to be 
concerned about ports of entry. I want him to be concerned 
about border control. I want him to worry about the security 
and safety of this Nation.
    Prior to this roll-up--and I voted for it, based on the 
testimony provided that this would be an effective way in which 
for America to prepare itself and protect itself and then clean 
up after a disaster. Frankly, I think the experiences of Rita, 
Katrina and Wilma have taught us an important lesson. If 
President Bush is going to get blamed for hurricanes, he ought 
to be able to talk directly to the FEMA director.
    I congratulate the President for selecting David Paulison. 
Kendrick Meek, my colleague from South Florida and I and a 
number of people sent a letter to the Administration urging 
that they hire Mr. Paulison and bring him up the chain of 
command. He is a former firefighter, he started in Fire 
Service. He rose through the ranks and became the leader of 
Miami-Dade's fire and rescue.
    There is something important about a person having disaster 
preparation and remediation skills. This is a wise and 
competent pick. He has proven himself capable during these last 
storms.
    But I want him to have a direct line to the President. 
During some press conferences, we heard numerous media ask, Mr. 
Paulison, have you spoken to the President today? Well, I have 
spoken to my superior, Mr. Chertoff, and I believe he has 
spoken to the President.
    Well, you know what? That is not good enough. Because at 
the end of the day the Commander in Chief, the President of the 
United States, seems to take the brunt of problems that are 
really more local in nature.
    Now, our Governor, Governor Jeb Bush, has done a tremendous 
job of preparation, pre-storm emergency preparedness, working 
with local community leaders, county commissioners, sheriff's 
departments, working at getting the vulnerable out of harm's 
way, urging people to evacuate in a timely, organized fashion. 
That's different. That's what local governments should do. 
That's what State governments should do. They should not have 
the burden of taking the responsibility or placing the 
responsibility on FEMA.
    But having watched and witnessed the both pre-and post-
disaster situations, it is apparent to me that this 
organization needs to be separate and apart. I think they don't 
need to be bigger. I don't think FEMA needs to change the way 
it operates inasmuch as creating a lot of new participants or 
players within the structure.
    I just think by separating, putting it in charge of these 
types of situations, with a direct line of authority from the 
President will enhance efficiency, will give them the kinds of 
tools they need. We heard in testimony that Mr. Brown, at the 
time, was calling or sending letters to Mr. Chertoff saying he 
needed 1,000 more employees. I want Mr. Paulison, if he becomes 
the Director, to have the opportunity to call those people up 
himself.
    This is critical. And again, Florida suffered eight 
hurricanes. We have seen a lot of carnage in our communities. 
We have seen a lot of other things that I would like to discuss 
at a future hearing.
    But essential to me is that FEMA stand alone, that we 
organize it in such a fashion as it was prior to the roll-up, 
that it does have the autonomy, it does have the authority, and 
clearly does have the capability if given the opportunity.
    Thank you, Mr. Chairman.
    Mr. Shuster. Thank you, Mr. Foley. We appreciate your 
words. On this Committee there has been much talk about exactly 
what your proposal is talking about, making FEMA an independent 
agency.
    I know that you have worked with this Committee before and 
you have become an expert on hurricanes, not because you wanted 
to, but because you had to. We certainly appreciate your 
expertise on this and as I said, this is not a partisan issue 
about FEMA becoming an independent agency again.
    As I said, I know Chairman Young, just yesterday, Chairman 
Young and Ranking Member of the Full Committee, Mr. Oberstar, 
said the same types of things you are saying here today. So I 
think that is something that as we move down the road we will 
be taking a very, very close, critical look at that.
    Thank you very much for being here and taking the time. We 
appreciate your proposal.
    Mr. Foley. Thank you.
    Mr. Shuster. Next we will hear from a member of the T&I 
Committee, a good friend of mine and neighbor from 
Pennsylvania, Todd Platts.

       TESTIMONY OF THE HONORABLE TODD RUSSELL PLATTS, A 
      REPRESENTATIVE IN CONGRESS FROM THE COMMONWEALTH OF 
                          PENNSYLVANIA

    Mr. Platts. Thank you, Mr. Chairman, Ranking Member Norton, 
Mr. Taylor. I appreciate the invitation to testify here today 
on this important topic of disaster relief in general and 
specifically our recovery efforts associated with Hurricane 
Katrina.
    As Chairman of the House Government Management, Finance and 
Accountability Subcommittee, the subcommittee charged with 
oversight of the Federal Government's finances, as well as the 
inspectors General, let me assure you that I share your 
commitment to ensuring that each and every dollar appropriated 
for hurricane disaster relief in the Gulf Coast region is spent 
wisely, efficiently and effectively, and that those dollars 
reach their intended recipients.
    In the wake of the terrible devastation caused by Hurricane 
Katrina, Congress has appropriated more than $60 billion for 
the immediate relief effort. These funds must be spent in a way 
that ensures that the people in the affected areas of 
Louisiana, Mississippi and Alabama are able to recover from 
this devastating event. Any dollar lost to fraud or waste is a 
dollar that does not make it to someone who is in need.
    This funding is too important to be mis-spent. That is 
precisely why in early September I, along with Government 
Reform Committee Chairman Tom Davis introduced legislation to 
establish a Special Inspectors General Council for Hurricane 
Katrina, H.R. 3810. In my experience as Chairman of the 
Government Management Subcommittee, I have seen first-hand the 
good work of agency inspectors general. Their unique 
relationship with both the agencies they oversee and the 
Congress, to whom they report, provides an ideal check on the 
system. Inspectors General have long stood as a bulwark against 
fraud and mismanagement.
    When Congress passed the Inspector General Act in 1978, in 
response to major management scandals within the Federal 
Government, we added an important balance to our system of 
separation of powers. Congress envisioned inspectors general as 
independent, non-partisan and objective. Since their creation, 
inspectors general have been largely successful in carrying out 
their mission, reporting billions of dollars in savings and 
cost recoveries, as well as thousands of successful criminal 
prosecutions.
    We should not rush to condemn or abandon this existing 
accountability structure. There is no reason to believe that 
our existing IGs will fail us in the wake of Hurricane Katrina, 
provided that we give them the resources and flexibility needed 
to succeed, and a mechanism to coordinate their actions.
    The Department of Homeland Security Inspector General has 
already taken proactive steps to ensure the appropriate 
expenditure of funds, not just after the fact, but in real time 
as those funds are being spent. Following Katrina, the DHS IG 
immediately assigned 12 personnel to monitor personnel at 
FEMA's emergency operations center to stay current on all 
activities and provide on the spot advice. The IG has also 
deployed auditors and investigators to field offices in Baton 
Rouge, Louisiana, Jackson, Mississippi and Montgomery, Alabama.
    The DHS IG is coordinating the efforts of 13 Federal 
inspectors general offices whose agencies are involved in the 
relief operations. These offices combined have committed more 
than 300 auditors and investigators to this effort. The DHS IG 
is also monitoring in real time major contracts and purchase 
card transactions to ensure that Federal acquisition 
regulations are being adhered to and that expenditures are 
necessary and reasonable.
    This is just the beginning. We need to ensure that these 
IGs have the continued resources necessary to do their jobs and 
that the appropriate coordination occurs.
    In addition to coordination, the DHS IG needs the 
flexibility to adapt to circumstances. In the weeks following 
Hurricane Katrina, the DHS IG adapted the structure of his 
existing office to create an assistant IG specifically for 
Katrina oversight, drawing the expertise of a former FEMA CFO. 
They did not wait for Congress to create a position, they were 
able to create it using their existing authority. This type of 
flexibility is critical to success in anything we do, and 
Congress must enhance, not undermine, the authority of the 
existing IG structure.
    Anyone who has heard the DHS IG in his many appearances 
before Congress over the past two months would agree that he is 
doing yeoman's work. He has taken a proactive approach with an 
eye toward preventing fraud and mismanagement, not just 
detecting it after the fact. Within days after Katrina, the DHS 
IG was already in the process of implementing many of the 
recommendations we are discussing here today.
    Maintaining the IG structure while ensuring effective 
coordination is the ultimate goal of my legislation. The 
funding related to this recovery and rebuilding effort would 
not flow through a single authority, but through each affected 
Federal entity. In other words, housing funds would be managed 
by HUD. Funds for repair of levees would go to the Army Corps 
of Engineers, disaster loan funds to the Small Business 
Administration and so on. Each of these Federal agencies has an 
existing oversight and accountability structure, led by its 
inspector general, whose responsibility is to ensure that funds 
charged to them are spent as intended.
    In the absence of an overall authority through which all 
Hurricane Katrina funding will flow, we do not need to add any 
additional layers of oversight. What we need is to effectively 
coordinate the existing infrastructure.
    In addition, almost all the entities involved in the 
Hurricane Katrina recovery also have Presidentially-appointed, 
Senate-confirmed chief financial officers who operate under the 
CFO Act of 1990. As you know, this Act requires that all major 
Federal agencies submit to a financial audit, along with other 
laws and regulations which help to ensure proper stewardship of 
taxpayer dollars and the development of effective financial 
management systems.
    Further, DHS faces the most stringent internal control 
requirements of any Federal agency under a bipartisan law that 
I sponsored along with Chairman Davis and others. The DHS 
Financial Accountability Act, which was signed by the President 
last October, subjects DHS to requirements similar to those 
mandated by private companies under Sarbanes-Oxley. The system 
of internal controls put in place in compliance with this law 
will provide the fundamental tools for effective management of 
these important funds.
    The proper way to ensure the most effective oversight is to 
leverage our existing resources and to let the accountability 
structure that Congress has put in place work as intended. This 
structure exists today, has no learning curve and has already 
demonstrated leadership by ensuring that resources were 
deployed to the Gulf region in a timely manner. With the proper 
resources, flexibility and coordination, this existing 
structure is our best defense against waste, fraud and abuse.
    Recognizing that the recovery effort will involve the full 
breadth of the Federal Government, President Bush established 
by Executive Order this week a Coordinating Council to address 
recovery and reconstruction in the Gulf Coast earlier this 
week. The President's Council is comprised of Cabinet 
Secretaries from the affected agencies. My legislation would 
provide an important parallel to this group by establishing an 
accountability council comprised of IGs from these same 
agencies.
    The President, again by Executive Order, designated a point 
person to coordinate the effort from the Department of Homeland 
Security. By designating the DHS IG as the chair of the Special 
IG Council created under my bill, it would again parallel the 
structure put forth by President Bush. As has been the case of 
the past quarter century, the IG community would serve as an 
effective counterweight to the executive branch, using a 
parallel accountability structure.
    We all share the same goal, Mr. Chairman, full 
accountability. As we look to accomplish this goal, we need to 
be mindful not to impede the work that is going on right now 
with an unnecessary level of bureaucracy. We need to follow the 
model established by the Inspector General Act, where the 
accountability structure mirrors the structure of the program 
it oversees. A Special Council of Inspectors General, headed by 
the DHS IG, will accomplish the goals we share in the most 
effective manner possible.
    Thank you, Mr. Chairman. I apologize for going over my 
time. I appreciate your indulgence and I appreciate your 
Committee's taking up this important issue. I look forward to 
working with you.
    Mr. Shuster. Thank you, and I appreciate all the hard work 
you have done on your subcommittee over in Government Reform. I 
think this is really a solid piece of legislation, and we have 
been working together to try to move this forward. Taking what 
we have in place and better utilizing it is, I think, a smart 
way to move forward on this issue. Thank you for all your 
efforts.
    Mr. Platts. You are welcome.
    Mr. Shuster. Next we have another member of the 
Transportation and Infrastructure Committee, Mr. Blumenauer of 
Oregon.

TESTIMONY OF THE HONORABLE EARL BLUMENAUER, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Blumenauer. Thank you, Mr. Chairman, Ranking Member 
Norton. I deeply appreciate the leadership that has been 
exhibited by this Subcommittee in the aftermath of Katrina. 
Working with the other subcommittees, I am impressed with what 
is already part of the record.
    I am here today to testify in support of H.R. 3524, the 
Safe Communities Act of 2005, which I introduced with 
Congressman Weldon earlier in the year. We have an opportunity 
in the aftermath of Katrina to focus public attention and 
political concern not just on doing the best job for the 
victims of this tragic storm. That is a high priority; we are 
all committed to it. But we also want to make sure that we make 
it less likely that others suffer needlessly in the future.
    Sadly, it seems to take a major disaster before we deal 
with mitigation and prevention. The Dam Safety programs were 
created after the Teton Dam in Idaho broke in 1976. In the 
Pacific Northwest, the volcano program came after the 1980 
eruption of Mount St. Helens. The wildfire response system 
developed following the catastrophic California fires of 1970, 
and of course, as we have discussed in this Committee, we made 
some major changes to our national flood damage reduction 
policies only following the 1990 floods in the upper 
Mississippi River.
    I support helping the victims of natural disasters. I think 
we ought to also spend time and energy on them before it 
occurs. If we had done a better job, some of the agony that 
Congressman Taylor has been struggling with on the ground 
personally might have been averted. The vast majority, and this 
is not just in the Gulf region, the vast majority of the 
American population, some 75 percent of our population, lives 
in a coastal area, in an earthquake area, prone to flood, fire, 
volcano, at risk to some type of natural disaster and the 
number is growing. More people are moving into the flame zones 
in the western forests, they are living on the coastal areas. 
You know this, it is part of our record.
    What we need to do is to help them deal with the rising 
cost impacts and the cost of human suffering. We owe it to the 
many victims of this summer's disasters to make the changes and 
improvements to our disaster policies that will make this less 
likely in the future.
    As you may know, I have been working on these issues since 
I came to Congress. We worked for five years to make some 
reforms in the Flood Insurance Program. Well, this legislation 
is another step. There is no single, magic bullet. But there 
are obvious starting places. And the most obvious is to lay the 
groundwork through sound planning.
    This legislation would do just that. It would create a new 
grant program within the Department of Homeland Security to 
support State, local and regional planning activities aimed at 
reducing threats posed by natural and human-caused disasters. 
The grants would be available for a number of prevention and 
mitigation uses ranging from comprehensive risk assessment and 
inventory of critical infrastructure to land use planning for 
natural hazards to updating building codes and urban design 
techniques to reduce risks.
    In crafting this legislation, we have been working for 
several years with planners, disaster mitigation experts, 
emergency managers, local building code professionals, 
architects, historic preservation, a wide range of interests 
that affect what you do on this Subcommittee. In speaking with 
these experts, it has become clear that Federal investment in 
natural disaster should include prevention and mitigation, as 
well as response and recovery.
    The World Bank and the U.S. Geological Survey has estimated 
that if we had spent $40 billion in the last decade, we would 
have saved $280 billion worldwide in economic losses and 
countless lives would have been saved, not just the $7 return 
for each $1 invested. The Association of State Floodplain 
Managers, which has appeared before you, estimates that 
structures built to higher building standards called for in the 
National Flood Insurance Program experienced 80 percent less 
damage than buildings that pre-date that standard.
    I could go on, I won't, you have another distinguished 
colleague to hear. My time is almost up. But I want to make 
clear that local governments are not doing this on their own. 
Only 24 states require local governments to prepare 
comprehensive plans or address hazards in their planning.
    After Katrina, we found that many communities in Louisiana, 
Mississippi and Alabama do not even have building codes. I am 
not talking about comprehensive plans. I am talking about seven 
Mississippi counties and three Louisiana parishes that don't 
have building codes.
    Those victims should not suffer because the States did not 
do the minimum job. This legislation would give the resources 
to the States to deal comprehensively. I don't want to be 
judgmental after the fact. But I want to make sure that 
Congress and the Federal Government is doing everything it can 
to make sure that these simple, common-sense steps are taken 
care of.
    The devastation from Katrina provides an opportunity to not 
just help people recover, but make sure that they are better 
off, and to make sure that the rational planning and 
development away from hazard will protect people across this 
Country. The grants authorized by the Safe Communities Act, 
which I urge you to consider and act upon appropriately, will 
provide communities with the Federal tools to plan in a safe 
and sustainable manner.
    It will save lives. It will save property. It will save 
tens of billions of tax dollars that won't have to be spent on 
into the future. And it will make it much less likely that 
America will see the haunting images like we saw with Katrina 
in the future.
    Thank you very much.
    Mr. Shuster. Thank you. As usual, the gentleman always 
brings knowledge and passion to whatever issue he is tackling. 
Your points are well taken, planning, mitigation, prevention. 
It brings to mind the saying my mother used to tell me, an 
ounce of prevention is worth a pound of cure. I think we see 
that over and over again.
    So we certainly will take this into consideration, and we 
appreciate your being here today and all your efforts putting 
this together. Thank you.
    Next we have two distinguished gentlemen, Mr. Lantos from 
California and Mr. Shays from Connecticut, with a piece of 
legislation they have put together. We appreciate your being 
here today and I will recognize Mr. Lantos first.

  TESTIMONY OF THE HONORABLE TOM LANTOS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Lantos. Thank you very much, Mr. Chairman, Madam 
Ranking Member and members of the Committee.
    I am delighted to be here, and I will be extremely brief. 
At the time of the hurricane, we were all glued to our 
television sets watching this very serious, dangerous, and 
tragic drama unfold. We all have our memories of what 
particular images remained with us most profoundly.
    In my own case, Mr. Chairman, it was watching a seven year 
old little boy who lost everything except his dog. And his dog 
was taken away from him because there was no provision to allow 
his pet to go to the shelter.
    We will not know, Mr. Chairman, how many American citizens 
lost their lives during the hurricane because they refused to 
be separated from their pet or from their service animal. My 
good friend, Congressman Shays, and I introduced legislation 
which will put an end to this absolutely mind-boggling and 
cruel absurdity: forcing American citizens, at a time of 
natural disaster such as the hurricanes we just witnessed, from 
having to choose between being rescued by themselves or staying 
with their animals and losing their lives alongside their 
animals.
    We introduced legislation, very simple legislation, which 
makes it mandatory for communities, local and State 
authorities, to have as part of their emergency evacuation plan 
a provision for taking care of household pets or service 
animals. About a third of American homes have pets. And there 
is no distinction between wealthy and poor families. We 
received an avalanche of communications supporting our 
legislation, from across the Country, when the media reported 
it.
    What we are asking for, and this is a totally bi-partisan 
piece of legislation, supported by the distinguished Chairman 
and Ranking Member of the Transportation Committee, alongside 
Mr. Shays, myself and scores of others, is to include an 
emergency valuation provision for household pets and service 
animals.
    What this legislation will mean is not only an end to the 
cruelty which is implied when a seven year old little boy, 
having had his home destroyed, has his last possession, his 
dog, taken away from him, but it will also provide an 
opportunity for people who would not leave their pets, as I 
would not, to be saved in case of a similar emergency such as 
the one we saw in the Gulf. I strongly urge that you support 
this legislation and I am delighted to yield the rest of my 
time to my friend, Chris Shays.
    Mr. Shuster. Mr. Shays, take as much time as you need--
within reason.
    [Laughter.]

TESTIMONY OF THE HONORABLE CHRISTOPHER SHAYS, A REPRESENTATIVE 
           IN CONGRESS FROM THE STATE OF CONNECTICUT

    Mr. Shays. I understand.
    I will submit my written statement for the record and just 
say to you that when I was growing up, I grew up with my collie 
pet named Mack. When we moved from another home, he kept 
running back to the old home and the new owner threw rocks at 
him. And he never came home.
    For a year, I was without my family pet, I was without 
Mack. That next year, my parents had bought a new home, they 
had no money for Christmas. No money whatsoever. But it was my 
best Christmas, because they had a gift from my grandfather of 
$75. He bought a new collie pet dog named Lance. I remember 
this new pet walking up, this tiny little dog, being carried by 
my dad up the steps on Christmas Eve. I was thinking I was 
going to have no gifts.
    I will just tell you that that dog, Lance, was as much a 
part of my family as my mother or father to me, at that age in 
particular. And if I had ever been faced with a choice of 
leaving that dog behind, my pet behind, Lance, or going with my 
parents to safety, I would have hid with my Lance. And I bet 
there were kids that did that. And I bet there were adults who 
did it.
    What we are simply saying is, in the emergency operation 
plans that you have to submit, how you evacuate a pet. Now, 
that doesn't mean that in an emergency, when you are evacuating 
someone from a home and the water is rising, that the pet gets 
to come. It doesn't say that a pet trumps a human being. It 
just says that in a shelter, maybe there will be a place for 
your pet, and there will be requirements that the pet has to be 
well-behaved and so on, or else.
    But there has to be, not this mindless law, no pets. I can 
just tell you that if there were 600,000 pets that were lost in 
Katrina, as the estimate is, there were literally many, many 
individuals who lost their lives with their pets. We hope that 
you move forward with this legislation.
    Now, I want to say something parenthetical to this. In the 
process of understanding our legislation better, I realize that 
we have emergency operation plans. But emergency operation 
plans do not require evacuation of human beings or animals. So 
when you look at this smaller picture, I think that emergency 
operation plans have to require that there be a requirement for 
evacuations of human beings. And in that process, obviously, 
animals as well.
    I hope you move forward with this legislation quickly. I 
will tell you that I have gotten more interest in this 
legislation than almost any legislation that I have ever 
submitted, and for good reason: two-thirds of Americans own 
pets.
    Mr. Shuster. Well, as one of those two-thirds owners, I 
have a pug myself. When I come from Washington, I have two 
teenagers and my wife and the dog seems to be the only one 
happy to see me come through the door.
    [Laughter.]
    Mr. Shuster. She greets me gleefully as I walk through the 
door.
    Mr. Shays. Well, let me just add to that, your kids 
probably like their pets better than they like you.
    [Laughter.]
    Ms. Norton. Chris, I could surmise some rather complicated 
deductions from the fact that this dog kept running away from 
you once you moved.
    Mr. Shays. Well, you know, it was the first one, and the 
sad thing was, we moved the house. So it kept running back to 
the old house.
    Ms. Norton. I understand. It seemed to love the house more 
than it loved you.
    [Laughter.]
    Mr. Shays. That's true. Touche.
    Mr. Shuster. Thank you both very much for being here today. 
We will certainly take this into consideration, and we 
appreciate it. Thank you.
    Mr. Lantos. Thank you, Mr. Chairman.
    Mr. Shuster. Next up is the newest member of the 
Transportation and Infrastructure Committee, and the newest 
member of the United States Congress, our new colleague from 
Ohio, Jean Schmidt. Welcome, and we look forward to hearing 
your testimony.

 TESTIMONY OF THE HONORABLE JEAN SCHMIDT, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mrs. Schmidt. Thank you, Chairman Shuster and Ranking 
Member Norton, for holding this hearing and for the opportunity 
to share my proposal with the Subcommittee.
    My legislation would address an issue that is of great 
concern to all of us: the prudent spending of our Federal tax 
dollars, not as a result of Katrina, but future hurricanes. 
Louisiana, Mississippi and Alabama do not have modern, uniform, 
statewide building codes. They are the only States targeted by 
these vicious storms without modern, uniform, statewide codes.
    An article in today's Times-Picayune reports that there are 
efforts underway in Louisiana, in the legislature, to consider 
a statewide building code. A recent study by the Louisiana 
State University Hurricane Center estimates that $10 billion in 
construction damage to homes by Hurricanes Katrina and Rita 
could have been reduced by $8 billion if Louisiana would have 
had a modern, uniform, statewide building code. That is right. 
The study suggests that the cost of rebuilding after Katrina 
would have been reduced by 80 percent.
    My proposal, House Concurrent Resolution 285, is a 
straightforward and responsible sense of Congress resolution 
that the States of Louisiana, Mississippi and Alabama should 
adopt modern and uniform statewide building codes, establishing 
minimum standards for construction and maintenance of buildings 
and other structures to mitigate costs in future disasters. My 
proposal also encourages the building code standards to be at 
least as comprehensive as the model building standards and 
codes developed by the International Code Council.
    The International Code Council, or the ICC, was established 
in 1994 as a non-profit organization dedicated to developing a 
single set of comprehensive and coordinated national model 
construction codes. As we move forward to rebuild the Gulf 
Coast region, there are substantial advantages in producing a 
uniform statewide building code for both taxpayers, owners and 
the building industry. More important, uniform standards will 
help mitigate costly future natural disasters, improving public 
safety and hopefully saving lives as well as saving tax 
dollars.
    I introduced House Concurrent Resolution 285 because 
Congress and the affected States need to seriously consider 
this important issue as we move forward. And it would help 
accomplish three significant goals: reduce future taxpayer 
expenditures; improve public safety; and improve the lives of 
the Americans in this region.
    Thank you again, Chairman Shuster, Ranking Member Norton 
and members of the Subcommittee for this opportunity. I look 
forward to continuing to work with you on my proposal.
    Mr. Shuster. Thank you very much. Once again, I think I 
said it a couple of witnesses ago, an ounce of prevention is 
worth a pound of cure. So many times we see if building codes 
were better, I think I just watched in Florida where they 
showed a building, that was in the latest, Hurricane Wilma, I 
think it was, that went through Florida, there was a building 
not even completely constructed, there were no windows blown 
out of it because it was built up to these new codes that are 
going to prevent those things from happening. So again, that is 
something that we will take under consideration and consider 
moving forward.
    Thank you very much for taking the time to be here today.
    Mrs. Schmidt. Thank you very much.
    Mr. Shuster. The staff tells me we are going too fast. I 
don't think it is possible to go too fast in a committee 
hearing.
    We are going to take a short recess until the next member 
gets here.
    [Recess.]
    Mr. Shuster. The Subcommittee will come back to order.
    I would like to welcome the gentleman from Mississippi, I 
know he has a bum leg from baseball and playing football with 
his kids, so we knew you were going to take some time getting 
down here.
    We really appreciate your coming to testify today, and are 
interested in hearing what your legislation proposes. So with 
that, please proceed.

  TESTIMONY OF THE HONORABLE CHARLES W. ``CHIP'' PICKERING, A 
    REPRESENTATIVE IN CONGRESS FROM THE STATE OF MISSISSIPPI

    Mr. Pickering. Thank you, Mr. Chairman. I appreciate the 
chance to testify before this Committee, the Committee on which 
I served in my first term, and a Committee that can give great 
assistance in a time of tragedy and disaster for my home State 
of Mississippi.
    Today I would like to talk to you first about the scope and 
the size of what happened to our State, and then ask for your 
help as I plan to introduce legislation that would get 
assistance to those individuals who have lost everything, lost 
their homes and who want to rebuild, but as of today, don't see 
how they can achieve that and how they can recover. This is 
just a critical issue for us.
    As you know, Katrina was the third strongest hurricane on 
record to make landfall on the United States. The difference 
and distinction of this storm is that the largest storm surge 
ever recorded in America hit the Mississippi Gulf Coast. The 
thirty-foot storm surge recorded at Biloxi, Mississippi, the 
highest ever observed, is the record storm surge that has 
occurred in the last 150 years. Before that, Camille was the 
benchmark for all hurricanes. And it was a category 5. Katrina 
was a category 4. We had 200 mile an hour winds with Camille.
    The difference was that with Camille we did not have the 
storm surge. Because of that, all the FEMA flood maps were 
predicated on a category 5 Camille-type storm, and this storm 
was so much worse because of the storm surge. So places that 
were never in a flood zone, and whenever a homeowner would go 
to a banker for a mortgage, they were told they were not 
required to have flood insurance, because they were not in the 
FEMA-designated flood zone or floodplain. That is a very 
important part, an underlying issue as we go forward trying to 
find a way to get assistance to them.
    It was the most destructive and costliest storm in American 
history. Right now, the death toll stands at 1,302. The damage 
is estimated from $70 billion to $130 billion. This tops 
Hurricane Andrew as the most expensive natural disaster in U.S. 
history.
    Over a million people were displaced. It is a humanitarian 
crisis on a scale unseen in the U.S. since the Great 
Depression, the greatest displacement, the greatest migration 
ever in American history.
    Two weeks after the storm, over half the United States was 
involved in providing shelter for the evacuees. The Federal 
disaster declaration covered 90,000 square miles. The scope and 
size of the storm is as large as the United Kingdom. So as our 
colleagues from other regions and other places look at this, 
and it is easy to forget, too quickly, for the rest of the 
country, that as the cameras leave, the devastation remains. 
And the hope of rebuilding, right now people are at that 
critical decision point: can I rebuild or must I leave and go 
somewhere else? What are my options and what are my choices? 
And that is why the legislation that I will introduce is so 
critical.
    FEMA estimates that the number of uninsured properties in 
Mississippi alone that were severely flooded or destroyed by 
the storm surge is between 30,000 and 40,000. Now, remember, 
these are people who were told they did not have to have flood 
insurance, because they were outside of the flood zone, as 
benchmarked by Hurricane Camille in 1969.
    The Mississippi Gulf Coast, unlike Louisiana, is above sea 
level. So no one ever dreamed that you would have a tsunami of 
a 30 foot wall of water coming over the Mississippi Gulf Coast.
    There are a number of proposals out there. I joined with 
Congressman Taylor on one proposal and we are working with all 
the members of the Mississippi and Louisiana delegation around 
a consensus plan of how we can help these individuals who had 
homeowners' insurance, lived outside of the floodplain and the 
flood zone, but did not have flood insurance.
    The reason that we are trying to do this, on the 
Mississippi Gulf Coast, if you think of 35,000 homes, 
representing about 100,000 people, median home values around 
$80,000, they are the people who build the ships for our Navy, 
work at Stennis Space Center, critical infrastructures and 
critical institutions on our Gulf Coast. If they are not able 
to build back, then the economy and the jobs will not come back 
ether.
    So the critical focus and the critical priority, the top 
priority for the delegations in Mississippi and Louisiana is to 
try to find a way to help these individuals, these families and 
these communities rebuild. So this is what I would like the 
Committee to consider in a legislative solution. Again, I am 
working with Senator Cochran closely to introduce this draft 
legislation in the Senate as I introduced it with all the 
members of our region here in the House.
    The bill would first create a new section 425 under the 
Stafford Act. What it would do is authorize the Director of 
FEMA to provide temporary emergency assistance to owners of 
eligible structures to reconstruct or to repair such 
structures. Right now, you are capped at $26,000 of individual 
or other assistance through FEMA. This would develop a new 
category, section 425. It would be a 90 percent share, Federal 
share, and a 10 percent share from the State or the individual. 
Excuse me, you would have 10 percent of the homeowner 
contributing, and you could look at 10 percent of the State as 
well. So both the State, the individual and the Federal 
Government share in the cost of this program and give a 
commitment to the rebuilding.
    But the most important thing is if they receive this grant, 
if they accept this grant to rebuild, they will have to do it 
with steps of responsibility. One, they would have to rebuild 
according to international code. What we have learned in 
Florida, if you build to international code, you can withstand 
hurricanes of 3, 4 and 5, and the structural damage and the 
cost for future storms can be greatly minimized.
    Two, you would require them forever more, even though they 
are not in the floodplain, to buy flood insurance. So the 
personal responsibility of higher codes and purchasing of flood 
insurance, and if they must rebuild, in compliance with those 
things. If they accept this funding, they can also participate 
in mitigation plans. In some of these areas, it may not be wise 
to rebuild. So they can participate in the mitigation plan that 
will take that land out of development.
    So this is a way to get us to a responsible future in a 
responsible way. But if we do not have this help, I am greatly 
fearful that our communities on the Mississippi Gulf Coast 
cannot rebuild, our economy cannot be restored or recovered, 
and we have to have this component for the rebuilding of the 
Gulf.
    The other thing that it would do is modify the current 
hazard mitigation program under section 404 of the Stafford 
Act. And it would change the Federal share under this program 
from 75 to 90 percent, and it would change the amount of the 
program of 7.5 percent of the disaster assistance in a State to 
15 percent. This is something that this Committee has indicated 
an interest in, and it is important to do. It was changed by 
Senator Bond from Missouri in recent years. This would go back 
to the previous precedents and standards of help under these 
mitigation programs.
    So in conclusion, there are many disasters in our Country's 
history. The last time that we had a great disaster for our 
Nation, September 11th, we established a victim's fund. Those 
were innocent victims of terrorism. In this case, we have 
innocent victims of a natural disaster. We put a fund together 
that established $7 billion for the victims of those injured by 
9/11. Now, we did not say that people had to, or the Congress 
had to offset that. Every year we pass emergency supplementals 
for our farmers, whether they had crop insurance or did not 
have crop insurance. We did not require an offset in those 
cases.
    When the tsunami hit in the Asian nations, we sent millions 
and billions of dollars without requiring an offset. In Iraq, 
we are rebuilding Iraq, we do not require an offset there. This 
is the only way we can rebuild and recover on the Mississippi 
Gulf Coast, and it can be done in a responsible way and at a 
cost that is less than the 9/11 fund as far as the individual 
assistance. We can do this, I hope, before Christmas. Because 
now is that critical point that if we don't do it, that people 
will decide they cannot rebuild and they will move to other 
places and our communities will be lost.
    So I ask with all sincerity and with everything that I have 
in my being for your assistance and your help for a region that 
has been devastated by the largest natural disaster in American 
history.
    Mr. Shuster. Thank you. I sit on the Katrina Committee, I 
share your frustration as you go through this. You are living 
it every week down there, you go home and here in Congress. I 
have been down there twice. The cameras all focus on New 
Orleans, but when you fly over that Mississippi coast, it is 
like a bomb has hit.
    I have seen the devastation and I think your legislation is 
responsible, it is well thought out and there is responsibility 
in there for the homeowner as you move forward. That is what 
Government is supposed to be, a safety net. This is exactly 
what this is going to address.
    So those people, as you said, they are innocent victims, no 
one ever expected that. So we will, some of these provisions 
already are in some other legislation we have drafted, we have 
put them in there. So we will go through this, I think it is 
well thought out and reasonable and responsible legislation. So 
I appreciate your time and effort coming here today and we will 
be looking forward to working with you on this.
    Mr. Pickering. Thank you, Mr. Chairman.
    Mr. Shuster. Thank you.
    Mr. Taylor. Mr. Chairman, I want to thank Mr. Pickering for 
introducing this. I am a co-sponsor. I would remind you and 
others that 99 percent of the people who live in Mississippi 
who were harmed in this storm happen to live in the 
Congressional district I represent. So we certainly welcome the 
help of anyone and everyone.
    I would also remind you that on a daily basis back home, 
and I do mean on a daily basis back home, people who had paid 
premiums, what they thought was hurricane insurance, for 10, 
20, 30, 40, 50 years, an adjustor is showing up at their house, 
looking around at what, there is nothing left in many 
instances, as you know, and then saying, we are sorry, this was 
a flood event, and if you had looked very closely at your 
policy, now remember, a policy is sort of like an omnibus 
appropriations bill around here, everybody claims to read them, 
nobody reads the whole thing. Somewhere buried in that policy 
is a little line that says, we don't pay for wind driven water.
    So despite the fact that those people thought they had 
hurricane insurance, they are now being told by the insurer, 
you are getting nothing. So your several hundred thousand 
dollar house is gone, in many instances your job is gone. Some 
people might have had home equity loans out against that as 
well.
    And what Mr. Pickering touched on and what is my sincere 
fear as well is that we could have a microcosm of the Great 
Depression in south Mississippi, with tens of thousands of 
people who thought they were doing the responsible thing, who 
thought they were taking every possible precaution, who lived 
outside the floodplain, who were told by their banker and their 
insurer that you don't need flood insurance. As a matter of 
fact, we were told by none other than the Consumer Federation 
of America that if you live outside the floodplain, don't buy 
Federal flood insurance, because that is a waste of money.
    So all these groups are saying, don't buy it. Now they are 
in a jam where, and extremely smart people, Jerry St. Peter, 
President of the Northrop Grumman Shipyard, with 13,000 
employees. He is a very smart man. He is one of these victims. 
Cy Fenneker, one of the smartest attorneys in Mississippi, the 
chief of staff to my immediate predecessor, the late Barton 
Smith, didn't have flood insurance. Federal Judge Lou Garola, a 
Federal judge, obviously a very smart man, did not have flood 
insurance. Ricky Matthews, the publisher of the biggest paper 
in South Mississippi, did not have flood insurance.
    So these are smart people who fell into this category. And 
tens of thousands of others. What Mr. Pickering is trying to 
do, what I am trying to do is number one, admit that this was 
an unforeseen thing, that to a certain extent has a culpability 
of our Nation because our Federal flood insurance flood maps 
told these folks it is not going to happen to them.
    The second thing is, it does call for taking prevention so 
we can minimize the chances of this happening again. And above 
all, just like we did after 9/11, is giving people a chance to 
get back on their feet. I think that is one of the great things 
that Franklin Roosevelt did during the Great Depression. Up 
until that time, our Nation had taken the attitude, if bad 
things happen, you are on your own. Our Nation's mood changed 
in the 1930s: when bad things happen, we are there for you.
    And we would hope in this instance, I can't speak for Mr. 
Pickering, but I can tell you when I ran for Congress, there 
was a horrible hurricane that hit Charleston, South Carolina. 
The day I was elected an earthquake hit San Francisco. My very 
first votes in Congress were to help the people in South 
Carolina and help the people in San Francisco. Since then, the 
people who were flooded in the Midwest, every other natural 
disaster, the people of Mississippi have stepped forward and 
voted to help those folks. What we are asking for this time is 
for the people of our Nation to help Mississippi and Louisiana.
    Again, as you mentioned, they have gotten a lot of the 
spotlight. But I think if you want to look in terms of sheer 
devastation and percentages of sheer devastation, two-thirds of 
the people in my home county no longer have a house they can 
live in. That is pretty much the norm along the Mississippi 
Gulf Coast. So in terms of percentages, Mississippi was hurt 
every bit as bad, if not worse, than Louisiana. We are just 
trying to find some way to help get these people back on their 
feet so they don't have to lose their houses. So I really want 
to thank Mr. Pickering for doing this.
    Mr. Pickering. Mr. Chairman, if I could, I want to commend 
Mr. Taylor. He has really been a leader on this issue. He was 
the first to introduce legislation to find a solution. I co-
sponsored that. We want you to know that all the Mississippi 
delegation and in the Senate, in the Coast, we are trying to 
find a solution that doesn't establish a precedent that 
concerns people, but finds a way to give the assistance that is 
required. Whether it is his bill or this bill, we are going to 
be working with this Committee and the leadership and everybody 
to find a way.
    Mr. Taylor lost his home. Nobody is more passionately 
committed to the Gulf Coast and its rebuilding. He has been the 
leader on this issue. I am glad to join and work with him to 
find a way to help our State rebuild and recover. He is 
correct, as he lays out, people thought that they had all the 
insurance that was required of them, based on what FEMA told 
them. And then banks followed the FEMA maps. And to get their 
mortgages, they were not required to have this insurance. And 
now the private insurance will not pay for anything that is 
water-related, only the wind damage.
    So there is no way they can be made whole by their 
insurance policies. And this is the only way that we can help 
them rebuild.
    So Mr. Chairman, thank you, and Mr. Taylor, thank you for 
your leadership.
    Mr. Shuster. You are welcome and I thank both of you. I 
appreciate all your efforts, and as I said earlier, this is a 
responsible, well thought-out piece of legislation. It is a 
safety net, and that is what Government is for, a safety net 
for people that have things happen that nobody could plan for. 
So thank you very much for your hard work.
    Next up, the gentleman from Louisiana, Mr. Jindal. Thank 
you for joining us here today. You can proceed whenever you are 
ready.

 TESTIMONY OF THE HONORABLE BOBBY JINDAL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF LOUISIANA

    Mr. Jindal. Thank you, Mr. Chairman, and thank you, Mr. 
Taylor, for the opportunity to come and talk to you.
    First, I will start off by associating myself with the 
previous conversation. I would also reiterate, probably one of 
the top, most pressing priorities for us in the First District 
of southeastern Louisiana is this matter of homeowners and 
others that have been victimized once already by Hurricanes 
Katrina and Rita, we want to make sure they are not victimized 
again because of this dispute about flood insurance versus 
homeowners insurance.
    And in today's front pages, there are stories that the 
levees that were built by the Federal Government to protect 
them may not have been built properly. So I think that adds 
even more moral urgency to the need to give some relief. I am a 
co-sponsor of Mr. Taylor's legislation, and I am certainly open 
to other solutions. I think the bottom line is we need to 
provide relief and immediate answers to these families.
    I am here to talk about five different bills that we have 
pending before the Committee, four pending before the 
Committee, one that has already been approved by the Committee, 
regarding FEMA. I can't overstate both the importance of FEMA's 
role in rebuilding my home State, as well as the frustration 
with some of the delays in that rebuilding process.
    I am not here to point fingers, however, I am here to talk 
about specific recommendations that could improve this process 
going forward. I will go quickly for the sake of time. You have 
my written testimony which goes with these bills in much 
greater detail.
    The first bill provides disaster assistance to hospitals 
independent of their ownership status. Under current rules, 
under current Stafford Act rules, investor-owned hospitals are 
not eligible for assistance. At the time that we passed this 
legislation, investor-owned community hospitals were about 10 
percent of our Nation's hospitals. Today they are over twice 
that; in New Orleans they are even a larger percentage of the 
hospital capacity there.
    The storms obviously did not discriminate based on 
ownership status. In Louisiana alone, we have 63 of our State 
health care facilities that are shut down indefinitely. That 
includes 10 acute care hospitals, 11 parish health units. An 
additional seven acute care hospitals are closed temporarily. 
As you can imagine, we have a massive chicken and egg problem 
where people cannot come back to the area unless there are 
adequate health care facilities, and yet health care facilities 
can't open until they locate and provide housing for their 
staff.
    So the first legislation I would recommend for your 
consideration is the legislation that would allow investor-
owned and other hospitals to participate on a level basis for 
help in rebuilding and getting their doors open.
    The second piece of legislation, the Debris Removal Act of 
2005, this is a piece of legislation that has passed the Senate 
unanimously. Just to give you an idea of how large this problem 
is, in Louisiana, we have an estimated 55 million cubic yards 
of debris that needs to be collected. Of that, 3.8 million 
cubic yards has been collected.
    So out of 55 million cubic yards of debris, 3.8 million 
cubic yards has been collected. These trucks may be running for 
over a year. I cannot overstate for you the frustration at the 
local government level about the confusion about what is 
reimbursable, about whether they can use local contractors, 
about how long these things will be reimbursable.
    This bill has already passed the Senate unanimously. I 
would recommend that we go ahead and approve this legislation. 
It would clarify that local governments can use local 
contractors. It would extend for 180 days the amount of time 
they have to collect this debris.
    The third bill, Offshore Infrastructure Emergency Relief 
Act, would simply say that those that operate platforms and 
rigs, we have 46 platforms, 4 rigs that were destroyed by 
Katrina, 63 platforms, 1 rig that was destroyed by Rita. What 
people don't realize is that many of these platforms are owned 
by independent companies, so-called mom and pop operations. I 
am not as worried about the large integrated companies as I am 
about the smaller companies that don't have the vertical 
integration or the size.
    They don't want Federal aid. What they do want is fairness 
in the disaster declaration process. What this bill would do, 
passed the Resources Committee unanimously, is that it would 
allow the offshore areas to be declared a disaster area for a 
limited period of time after these disasters. The impact would 
be that they could get their insurance proceeds, use them to 
rebuild tax-free.
    Onshore, if their rigs were destroyed, these tax-free 
proceeds could be used for reinvestment. Because they are on 
the outer continental shelf, however, they are going to have to 
pay taxes on their insurance proceeds. That strikes us as 
unfair and counter-productive when we are trying to encourage 
production, not discourage production. We want to help meet the 
Nation's energy needs. This is one pain-free way we could do 
it.
    CBO scored this as not having a score. So we would like to 
see this move relatively quickly.
    Fourth, the Disaster Equity Relief Act of 2005, this is a 
bi-partisan bill that has already been approved by this 
Subcommittee. It would simply codify the President's Executive 
Order, making sure that we do not discriminate against faith-
based institutions, we don't discriminate against them based on 
ownership when it comes time to rebuilding soup kitchens, 
homeless shelters, schools and other institutions that have 
suffered damage.
    Again, you have already passed this and I appreciate that. 
It does have quite widespread bi-partisan support.
    Fifth and finally, the Disaster Relief Recovery Act of 
2005. It would, I think, correct some unintentional changes in 
the Act. For example, it would restore the cap on repair costs 
for individuals and households up to $25,500. We think it was 
inadvertently lowered to $5,000 in 2000. I don't think that was 
the intent.
    It would also improve the State management cost funding and 
make some other changes that we think are very important, for 
example, restoring the 15 percent formula for mitigation costs. 
We think that is very important as we think about mitigating 
damage and preventing future storm damage.
    I know I have gone very quickly, I know our time is short. 
But Mr. Chairman, I want to thank you for holding this hearing. 
Mr. Taylor, I want to thank you for your hard work on behalf of 
your constituents. I know you know first-hand the damage caused 
by Katrina and Rita. These five bills as a package won't solve 
all of our problems. But I do think they would represent a 
pretty big step forward for our region.
    So I thank you for the opportunity to come and talk about 
this legislation.
    Mr. Shuster. Thank you, and thank you for all your efforts 
and hard work. If you are not the hardest working member, you 
are one of the hardest working members in Congress. I know the 
situation has forced a lot of this on you, and as you said, the 
Subcommittee passed out one of your bills. We were coming back 
from August to pass it out of full Committee, and then of 
course Katrina stopped all that.
    All of your legislation we will take into consideration, 
and in some form or another a lot of this stuff is somewhere 
working through the process. We really appreciate your efforts 
on this and look forward to working with you to move this 
legislation forward.
    Mr. Jindal. I want to thank you, not only for your 
leadership, Mr. Chairman, but for the full Committee's 
leadership. Both you and the Chairman and the Ranking Member 
have been very supportive of our efforts, and we appreciate 
that. I know you have a lot of work in front of the Committee.
    Mr. Shuster. Thank you very much. We appreciate your coming 
today.
    Mr. Taylor. Mr. Jindal, we are all in the same boat. You 
can count on Mississippi's help.
    Mr. Jindal. I thank the gentleman.
    Mr. Shuster. Thank you very much, Mr. Taylor. I want to 
thank all of the witnesses who were here today. They have given 
us a lot of insight, and these ideas, as I said from the 
beginning, come from different parts of the Country, they are 
really helpful. But as I mentioned, Mr. Jindal, we will be 
working through all these different ideas and pieces of 
legislation. I can't thank the members enough for taking the 
time to be here today.
    I would like to ask unanimous consent that the record of 
today's hearing remain open for ten days and that all members 
or outside groups wishing to submit materials be allowed to do 
so. Without objection, so ordered.
    With that, the Committee stands adjourned.
    [Whereupon, at 11:38 a.m., the subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] T5920.001
    
    [GRAPHIC] [TIFF OMITTED] T5920.002
    
    [GRAPHIC] [TIFF OMITTED] T5920.003
    
    [GRAPHIC] [TIFF OMITTED] T5920.004
    
    [GRAPHIC] [TIFF OMITTED] T5920.005
    
    [GRAPHIC] [TIFF OMITTED] T5920.006
    
    [GRAPHIC] [TIFF OMITTED] T5920.007
    
    [GRAPHIC] [TIFF OMITTED] T5920.008
    
    [GRAPHIC] [TIFF OMITTED] T5920.009
    
    [GRAPHIC] [TIFF OMITTED] T5920.010
    
    [GRAPHIC] [TIFF OMITTED] T5920.011
    
    [GRAPHIC] [TIFF OMITTED] T5920.012
    
    [GRAPHIC] [TIFF OMITTED] T5920.013
    
    [GRAPHIC] [TIFF OMITTED] T5920.014
    
    [GRAPHIC] [TIFF OMITTED] T5920.015
    
    [GRAPHIC] [TIFF OMITTED] T5920.016
    
    [GRAPHIC] [TIFF OMITTED] T5920.017
    
    [GRAPHIC] [TIFF OMITTED] T5920.018
    
    [GRAPHIC] [TIFF OMITTED] T5920.019
    
    [GRAPHIC] [TIFF OMITTED] T5920.020
    
    [GRAPHIC] [TIFF OMITTED] T5920.021
    
    [GRAPHIC] [TIFF OMITTED] T5920.022
    
    [GRAPHIC] [TIFF OMITTED] T5920.023
    
    [GRAPHIC] [TIFF OMITTED] T5920.024
    
    [GRAPHIC] [TIFF OMITTED] T5920.025
    
    [GRAPHIC] [TIFF OMITTED] T5920.026
    
    [GRAPHIC] [TIFF OMITTED] T5920.027
    
    [GRAPHIC] [TIFF OMITTED] T5920.028
    
    [GRAPHIC] [TIFF OMITTED] T5920.029
    
    [GRAPHIC] [TIFF OMITTED] T5920.030
    
    [GRAPHIC] [TIFF OMITTED] T5920.031
    
    [GRAPHIC] [TIFF OMITTED] T5920.032
    
    [GRAPHIC] [TIFF OMITTED] T5920.033
    
    [GRAPHIC] [TIFF OMITTED] T5920.034
    
    [GRAPHIC] [TIFF OMITTED] T5920.035
    
    [GRAPHIC] [TIFF OMITTED] T5920.036
    
    [GRAPHIC] [TIFF OMITTED] T5920.037
    
    [GRAPHIC] [TIFF OMITTED] T5920.038
    
    [GRAPHIC] [TIFF OMITTED] T5920.039
    
    [GRAPHIC] [TIFF OMITTED] T5920.040
    
    [GRAPHIC] [TIFF OMITTED] T5920.041
    
    [GRAPHIC] [TIFF OMITTED] T5920.042
    
    [GRAPHIC] [TIFF OMITTED] T5920.043
    
    [GRAPHIC] [TIFF OMITTED] T5920.044
    
    [GRAPHIC] [TIFF OMITTED] T5920.045
    
    [GRAPHIC] [TIFF OMITTED] T5920.046
    
    [GRAPHIC] [TIFF OMITTED] T5920.047
    
    [GRAPHIC] [TIFF OMITTED] T5920.048
    
    [GRAPHIC] [TIFF OMITTED] T5920.049
    
    [GRAPHIC] [TIFF OMITTED] T5920.050
    
    [GRAPHIC] [TIFF OMITTED] T5920.051
    
    [GRAPHIC] [TIFF OMITTED] T5920.052
    
    [GRAPHIC] [TIFF OMITTED] T5920.053
    
    [GRAPHIC] [TIFF OMITTED] T5920.054
    
    [GRAPHIC] [TIFF OMITTED] T5920.055
    
    [GRAPHIC] [TIFF OMITTED] T5920.056
    
    [GRAPHIC] [TIFF OMITTED] T5920.057
    
    [GRAPHIC] [TIFF OMITTED] T5920.058
    
    [GRAPHIC] [TIFF OMITTED] T5920.059
    
    [GRAPHIC] [TIFF OMITTED] T5920.060
    
    [GRAPHIC] [TIFF OMITTED] T5920.061
    
    [GRAPHIC] [TIFF OMITTED] T5920.062
    
    [GRAPHIC] [TIFF OMITTED] T5920.063
    
    [GRAPHIC] [TIFF OMITTED] T5920.064
    
    [GRAPHIC] [TIFF OMITTED] T5920.065
    
    [GRAPHIC] [TIFF OMITTED] T5920.066
    
    [GRAPHIC] [TIFF OMITTED] T5920.067
    
    [GRAPHIC] [TIFF OMITTED] T5920.068
    
    [GRAPHIC] [TIFF OMITTED] T5920.069
    
    [GRAPHIC] [TIFF OMITTED] T5920.070
    
    [GRAPHIC] [TIFF OMITTED] T5920.071
    
    [GRAPHIC] [TIFF OMITTED] T5920.072
    
    [GRAPHIC] [TIFF OMITTED] T5920.073
    
    [GRAPHIC] [TIFF OMITTED] T5920.074
    
    [GRAPHIC] [TIFF OMITTED] T5920.075
    
    [GRAPHIC] [TIFF OMITTED] T5920.076
    
    [GRAPHIC] [TIFF OMITTED] T5920.077
    
    [GRAPHIC] [TIFF OMITTED] T5920.078
    
    [GRAPHIC] [TIFF OMITTED] T5920.079
    
    [GRAPHIC] [TIFF OMITTED] T5920.080
    
    [GRAPHIC] [TIFF OMITTED] T5920.081
    
    [GRAPHIC] [TIFF OMITTED] T5920.082
    
    [GRAPHIC] [TIFF OMITTED] T5920.083
    
    [GRAPHIC] [TIFF OMITTED] T5920.084
    
    [GRAPHIC] [TIFF OMITTED] T5920.085
    
    [GRAPHIC] [TIFF OMITTED] T5920.086
    
    [GRAPHIC] [TIFF OMITTED] T5920.087
    
    [GRAPHIC] [TIFF OMITTED] T5920.088
    
    [GRAPHIC] [TIFF OMITTED] T5920.089
    
    [GRAPHIC] [TIFF OMITTED] T5920.090
    
    [GRAPHIC] [TIFF OMITTED] T5920.091
    
    [GRAPHIC] [TIFF OMITTED] T5920.092
    
    [GRAPHIC] [TIFF OMITTED] T5920.093
    
    [GRAPHIC] [TIFF OMITTED] T5920.094
    
    [GRAPHIC] [TIFF OMITTED] T5920.197
    
    [GRAPHIC] [TIFF OMITTED] T5920.095
    
    [GRAPHIC] [TIFF OMITTED] T5920.096
    
    [GRAPHIC] [TIFF OMITTED] T5920.097
    
    [GRAPHIC] [TIFF OMITTED] T5920.098
    
    [GRAPHIC] [TIFF OMITTED] T5920.099
    
    [GRAPHIC] [TIFF OMITTED] T5920.100
    
    [GRAPHIC] [TIFF OMITTED] T5920.101
    
    [GRAPHIC] [TIFF OMITTED] T5920.102
    
    [GRAPHIC] [TIFF OMITTED] T5920.103
    
    [GRAPHIC] [TIFF OMITTED] T5920.104
    
    [GRAPHIC] [TIFF OMITTED] T5920.105
    
    [GRAPHIC] [TIFF OMITTED] T5920.106
    
    [GRAPHIC] [TIFF OMITTED] T5920.107
    
    [GRAPHIC] [TIFF OMITTED] T5920.108
    
    [GRAPHIC] [TIFF OMITTED] T5920.109
    
    [GRAPHIC] [TIFF OMITTED] T5920.110
    
    [GRAPHIC] [TIFF OMITTED] T5920.111
    
    [GRAPHIC] [TIFF OMITTED] T5920.112
    
    [GRAPHIC] [TIFF OMITTED] T5920.113
    
    [GRAPHIC] [TIFF OMITTED] T5920.114
    
    [GRAPHIC] [TIFF OMITTED] T5920.115
    
    [GRAPHIC] [TIFF OMITTED] T5920.116
    
    [GRAPHIC] [TIFF OMITTED] T5920.117
    
    [GRAPHIC] [TIFF OMITTED] T5920.118
    
    [GRAPHIC] [TIFF OMITTED] T5920.119
    
    [GRAPHIC] [TIFF OMITTED] T5920.120
    
    [GRAPHIC] [TIFF OMITTED] T5920.121
    
    [GRAPHIC] [TIFF OMITTED] T5920.122
    
    [GRAPHIC] [TIFF OMITTED] T5920.123
    
    [GRAPHIC] [TIFF OMITTED] T5920.124
    
    [GRAPHIC] [TIFF OMITTED] T5920.125
    
    [GRAPHIC] [TIFF OMITTED] T5920.126
    
    [GRAPHIC] [TIFF OMITTED] T5920.127
    
    [GRAPHIC] [TIFF OMITTED] T5920.128
    
    [GRAPHIC] [TIFF OMITTED] T5920.129
    
    [GRAPHIC] [TIFF OMITTED] T5920.130
    
    [GRAPHIC] [TIFF OMITTED] T5920.131
    
    [GRAPHIC] [TIFF OMITTED] T5920.132
    
    [GRAPHIC] [TIFF OMITTED] T5920.133
    
    [GRAPHIC] [TIFF OMITTED] T5920.134
    
    [GRAPHIC] [TIFF OMITTED] T5920.135
    
    [GRAPHIC] [TIFF OMITTED] T5920.136
    
    [GRAPHIC] [TIFF OMITTED] T5920.137
    
    [GRAPHIC] [TIFF OMITTED] T5920.138
    
    [GRAPHIC] [TIFF OMITTED] T5920.139
    
    [GRAPHIC] [TIFF OMITTED] T5920.140
    
    [GRAPHIC] [TIFF OMITTED] T5920.141
    
    [GRAPHIC] [TIFF OMITTED] T5920.142
    
    [GRAPHIC] [TIFF OMITTED] T5920.143
    
    [GRAPHIC] [TIFF OMITTED] T5920.144
    
    [GRAPHIC] [TIFF OMITTED] T5920.145
    
    [GRAPHIC] [TIFF OMITTED] T5920.146
    
    [GRAPHIC] [TIFF OMITTED] T5920.147
    
    [GRAPHIC] [TIFF OMITTED] T5920.148
    
    [GRAPHIC] [TIFF OMITTED] T5920.149
    
    [GRAPHIC] [TIFF OMITTED] T5920.150
    
    [GRAPHIC] [TIFF OMITTED] T5920.151
    
    [GRAPHIC] [TIFF OMITTED] T5920.152
    
    [GRAPHIC] [TIFF OMITTED] T5920.153
    
    [GRAPHIC] [TIFF OMITTED] T5920.154
    
    [GRAPHIC] [TIFF OMITTED] T5920.155
    
    [GRAPHIC] [TIFF OMITTED] T5920.156
    
    [GRAPHIC] [TIFF OMITTED] T5920.157
    
    [GRAPHIC] [TIFF OMITTED] T5920.158
    
    [GRAPHIC] [TIFF OMITTED] T5920.159
    
    [GRAPHIC] [TIFF OMITTED] T5920.160
    
    [GRAPHIC] [TIFF OMITTED] T5920.161
    
    [GRAPHIC] [TIFF OMITTED] T5920.162
    
    [GRAPHIC] [TIFF OMITTED] T5920.163
    
    [GRAPHIC] [TIFF OMITTED] T5920.164
    
    [GRAPHIC] [TIFF OMITTED] T5920.165
    
    [GRAPHIC] [TIFF OMITTED] T5920.166
    
    [GRAPHIC] [TIFF OMITTED] T5920.167
    
    [GRAPHIC] [TIFF OMITTED] T5920.168
    
    [GRAPHIC] [TIFF OMITTED] T5920.169
    
    [GRAPHIC] [TIFF OMITTED] T5920.170
    
    [GRAPHIC] [TIFF OMITTED] T5920.171
    
    [GRAPHIC] [TIFF OMITTED] T5920.172
    
    [GRAPHIC] [TIFF OMITTED] T5920.173
    
    [GRAPHIC] [TIFF OMITTED] T5920.174
    
    [GRAPHIC] [TIFF OMITTED] T5920.175
    
    [GRAPHIC] [TIFF OMITTED] T5920.176
    
    [GRAPHIC] [TIFF OMITTED] T5920.177
    
    [GRAPHIC] [TIFF OMITTED] T5920.178
    
    [GRAPHIC] [TIFF OMITTED] T5920.179
    
    [GRAPHIC] [TIFF OMITTED] T5920.180
    
    [GRAPHIC] [TIFF OMITTED] T5920.181
    
    [GRAPHIC] [TIFF OMITTED] T5920.182
    
    [GRAPHIC] [TIFF OMITTED] T5920.183
    
    [GRAPHIC] [TIFF OMITTED] T5920.184
    
    [GRAPHIC] [TIFF OMITTED] T5920.185
    
    [GRAPHIC] [TIFF OMITTED] T5920.186
    
    [GRAPHIC] [TIFF OMITTED] T5920.187
    
    [GRAPHIC] [TIFF OMITTED] T5920.188
    
    [GRAPHIC] [TIFF OMITTED] T5920.189
    
    [GRAPHIC] [TIFF OMITTED] T5920.190
    
    [GRAPHIC] [TIFF OMITTED] T5920.191
    
    [GRAPHIC] [TIFF OMITTED] T5920.192
    
    [GRAPHIC] [TIFF OMITTED] T5920.193
    
    [GRAPHIC] [TIFF OMITTED] T5920.194
    
    [GRAPHIC] [TIFF OMITTED] T5920.195
    
                                    

</pre></body></html>
